BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Petition for Writ of
Certiorari in Neringa Venckiene v. United States of
America, were sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 4th day of September, 2019:
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent
Michael D. Monico
Counsel of Record
MONICO & SPEVACK
20 South Clark Street
Suite 700
Chicago, IL 60603
312-782-8500
mm@monicolaw.com
Counsel for Petitioner
Neringa Venckiene

I

8790 Governor's Hill Drive

Franklin Square

' (800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

. www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 4, 2019.

Julie . ershner
Becker allagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

